CONCERNS RELATED TO SBA’S ACQUISITION PERSONNEL
           EDUCATION AND TRAINING

              REPORT NUMBER 6-33

               SEPTEMBER 29, 2006
                             U.S. Small Business Administration
                                Office of Inspector General
                                   Washington, D.C. 20416




                                                            MANAGEMENT ADVISORY
                                                                  REPORT
                                                           Issue Date: September 29, 2006
                                                           Report Number: 6-33



TO:           Lewis Andrews
              Associate Deputy Administrator for Management and Administration

              /s/ original signed
FROM:         Debra S. Ritt
              Assistant Inspector General for Auditing

SUBJECT:      Concerns Related to SBA’s Acquisition Personnel Education and Training

        This memorandum is to notify you that the Office of Inspector General (OIG) has
completed its survey of SBA’s acquisition personnel education and training and has decided not
to proceed with an audit at this time due to SBA’s limited progress in implementing the Office of
Management and Budget’s (OMB) requirements related to acquisition personnel. SBA lacked
documentation available for OIG review, such as acquisition personnel rosters and training
records. However, we believe it would be helpful to provide for your consideration a summary
of the OIG’s observations and concerns regarding SBA’s implementation of the OMB Letters
pertaining to the acquisition workforce. Our decision not to proceed with an audit does not
preclude the OIG from performing additional work on SBA’s acquisition workforce education
and training in the future.

        Our objectives in conducting the survey were to determine the extent to which SBA
implemented the Office of Federal Procurement Policy Letter 05-01, Developing and Managing
the Acquisition Workforce. The goal of OMB’s acquisition workforce policies is to create a
Federal acquisition workforce with the skills necessary to deliver best value supplies and
services, find the best business solutions, and provide strategic business advice to accomplish
agency missions. Policy Letter 05-01, issued by the Office of Management and Budget on April
15, 2005, incorporated Policy Letters 92-3 and 97-01, which established the government-wide
framework for creating a Federal acquisition workforce. Policy Letter 05-01 aims to improve the
development of the acquisition workforce by more broadly defining this workforce and by more
closely aligning the education, training and experience requirements between defense and
civilian agencies for entry and advancement in the acquisition career fields. It also requires a
certification program for acquisition personnel in civilian agencies.

        We focused our survey work on determining whether SBA had (1) identified its
acquisition workforce, (2) maintained information on the education and experience of
acquisition staff, and (3) assessed the skill level of this workforce. We examined OMB Policy
Letter 05-01, and other related OMB policy directives. We also reviewed SBA’s draft Standard
Operating Procedure, Professional Acquisition Career Development, SOP 39 15 2, and
Procurement Career Management Program, SOP 39 15 1. Additionally, we interviewed SBA’s
former Assistant Administrator (AA) for Administration, SBA’s Acquisition Career Manager
(ACM), and the OMB Policy Analyst responsible for providing guidance to agencies on OMB
procurement policies. We attempted to meet with SBA’s Chief Acquisition Officer (CAO), who
declined to meet with us and referred us to the former AA for Administration. Fieldwork was
performed in Washington, DC during April and May 2006.

OBSERVATIONS

        SBA has not completed the basic steps necessary to comply with Policy Letter 05-01
including: (1) identifying its acquisition workforce; (2) collecting experiential and training
information on its acquisition workforce; and (3) assessing the skill level of its workforce. SBA
solicited staff input on their job duties and skill levels, but will not have this information
analyzed and in the Federal acquisition workforce database by October 1, 2006, as required.
Consequently, SBA cannot provide assurances that it has a highly qualified and well-trained
acquisition workforce that possesses the core competencies specified by OMB. Based on our
discussions with a knowledgeable OMB official, SBA’s progress in meeting the requirements of
Policy Letter 05-01 is behind that of other Federal agencies. Because implementing Policy
Letter 05-01 will require an agency-wide effort and a multi-year budget strategy, SBA will need
to develop a plan to assist the Agency in ensuring compliance with the policy letter requirements.

SBA Has Not Identified Its Acquisition Workforce

        Policy Letter 05-01 requires that agencies identify all individuals involved in
acquisitions, including those working outside traditional contracting functions who are
responsible for determining procurement requirements, measuring contract performance and
providing technical and management direction so they can be developed using common
standards. OMB requires that at a minimum, agencies include all positions in the General
Schedule contracting series (GS-1102); all Contracting Officers with the authority to obligate
funds above the micropurchase threshold regardless of general schedule series; program and
project managers as identified by the agency’s CAO; all contracting officer’s representatives and
contracting officer’s technical representatives; and any significant acquisition-related positions
identified by the CAO using the guidance from Policy Letter 05-01.

        We found that SBA has not yet identified its acquisition workforce as required by OMB
Policy Letter 05-01. SBA issued a procedural notice to all employees requesting them to submit
a profile of their regularly performed job functions and training needs. SBA will use these
profiles to develop a comprehensive list of its acquisition workforce that includes those

                                                 2
individuals who occasionally perform acquisition-related tasks. However, SBA has not
established a timeframe for completing this task. Imposing such a broad definition complies
with the letter and spirit of OMB Policy Letter 05-01. However, since SBA is relying on staff
and not personnel or training records, it is not clear how SBA’s Office of Human Capital will be
involved to ensure the accuracy of the information collected.

SBA Has Not Tracked the Education, Training or Experience of Acquisition Staff

        SBA has not collected or maintained individual education, training and experience data
on members of its acquisition workforce. OMB Policy Letter 05-01 requires that by October 1,
2006, each Federal agency have complete, current records in the Federal Acquisition Institute's
Acquisition Career Management System (ACMIS) for, at a minimum: all positions in the general
schedule contracting series (GS-1102); all contracting officers regardless of general schedule
series with authority to obligate funds above the micropurchase threshold; and all positions in the
general schedule purchasing series (GS-1105).

        The Clinger-Cohen Act, which amended the Office of Federal Procurement Policy Act
pertaining to the Federal acquisition workforce, and Policy Letter 97-01 stipulated that Federal
agencies should develop a management information system to track acquisition workforce
continuing education requirements. The former AA for Administration told us that such a
system had not been developed. Because SBA has not identified or maintained data about its
acquisition workforce, meeting the October 1, 2006, deadline will be difficult and require a
greater level of effort for SBA than would otherwise be needed.

SBA Has Not Defined Its Plans to Develop a Skills Inventory of Its Acquisition Workforce

       Once SBA fully identifies its acquisition workforce, it will need to assess the skills of this
workforce to identify short-term and long-term hiring and training needs, and establish plans,
including recruitment and retention strategies, in order to obtain the acquisition workforce
resources and skills required to meet future Agency mission needs.

        Although OMB’s Policy Letter 05-01 does not specify the steps required to implement
the directive, it assigns responsibility to the CAO for implementing a budget strategy that reflects
the workforce’s developmental needs. Identifying workforce needs will be a complicated
process involving SBA management at almost every level. Working with the Office of Human
Capital and SBA program managers, the CAO and ACM will need to review SBA position
descriptions to determine the skills required for each position, match job requirements with the
skills of personnel in the positions, and develop a strategy to fill discovered gaps. Additionally,
a budget strategy based on SBA’s priorities and available resources will need to be developed.
Such a strategy might include determining whether skill gaps will be addressed through
recruitment or training of the existing workforce, assessing the related budget impact, identifying
funding sources, and prioritizing funding needs.




                                                 3
CONCLUSION

         Without documented plans to fulfill the requirements of Policy Letter 05-01, which SBA
has yet to develop, SBA risks not having a highly qualified, well-trained workforce based on the
framework of core competencies specified by OMB. Completing the tasks necessary to comply
with OMB Policy Letter 05-01 will require a significant level of effort for any agency. For SBA,
the level of effort required will be even greater because it did not previously establish a
personnel database required by the Clinger-Cohen Act and because SBA had a late start in
identifying it acquisition workforce. Beyond the Procedural Notice the Agency issued to solicit
staff input on their acquisition-related duties, experience and training, it is not clear how SBA
will collect, synthesize and analyze this data to meet the October 1, 2006, deadline for ACMIS or
how it will use the data to determine and then fill skill gaps in the workforce. Additionally, it is
not clear what role the Office of Human Capital will play in the process. For SBA to achieve the
goals of the Policy Letter and for it to ensure that the Agency develops and maintains an
acquisition workforce with the necessary skills to accomplish Agency goals and objectives, SBA
should develop a detailed transition plan, as recommended in the Policy Letter, to guide its
efforts to comply with OMB Policy Letter 05-01.


RECOMMENDATION

      We recommend that the Associate Deputy Administrator for Management and
Administration, in his role as SBA’s Chief Acquisition Officer:

       1. Develop a plan for meeting the requirements of Policy Letter 05-01 that assigns
          responsibility and establishes timeframes for identifying the workforce, assessing
          skill levels and training needs, and provides for the tracking and reporting of
          workforce data.

SBA MANAGEMENT’S RESPONSE AND OIG’S EVALUATION OF
MANAGEMENT’S RESPONSE


         The Associate Deputy Administrator for Management and Administration (ADA) stated
that SBA is making progress in meeting the letter and spirit of OMB acquisition workforce
requirements. He further stated that SBA is making progress in identifying its acquisition
workforce and is not far behind other agencies in meeting OMB's requirements for transitioning
to the mandated acquisition workforce tracking system. The ADA also indicated that while a
high level plan has been developed that considers all aspects necessary for full implementation of
Policy Letter 05-01, he agreed with our recommendation and stated that as forthcoming OMB
guidance clarifies timelines, the plan will be refined to include the necessary detail to ensure
progress and compliance on this important initiative. The ADA’s response is included in its
entirety as Attachment 1.


        The ADA's planned actions are responsive to our recommendation. The refined plan
should assign responsibility and establish timeframes for identifying SBA’s acquisition
                                                 4
workforce, assessing skill levels and training needs, and tracking workforce data. The plan
should list the specific actions necessary to accomplish the aforementioned tasks, the name(s) of
the responsible official(s) who will complete the actions, and agreed-upon milestones. Upon
receipt of the refined detailed plan, the OIG will consider final action to have occurred.


                                          *****
        The findings included in this report are the conclusions of the Office of Inspector
General’s Auditing Division. The findings and recommendation are subject to review,
management decision, and corrective action by your office in accordance with existing Agency
procedures for audit follow-up and resolution. Should you or your staff have any questions,
please contact Robert Hultberg, Director, Business Development Programs Group at (202) 205-
[EXEMPTION 2].
        Should you or your staff have any questions, please contact Robert G. Hultberg,
Director, Business Development Programs Group at (202) 205-[EXEMPTION 2].




                                                5
                            Attachment 1
                              Page 1 of 5




              EXMEPTION 6

EXEMPTION 6
Attachment 1
  Page 2 of 5
Attachment 1
  Page 3 of 5
Attachment 1
  Page 4 of 5
Attachment 1
  Page 5 of 5
                                                                                                                          Attachment 2

                                                .REPORT DISTRIBUTION


Recipient                                                                                                       No. of Copies

Chief Operating Officer ..........................................................................................1

Deputy Associate Deputy Administrator for Management and Administration ... 1

Chief Human Capital Officer ..................................................................................1

Acting Assistant Administrator for Administration.................................................1

Acquisition Career Manager ....................................................................................1

Office of the Chief Financial Officer
Attention: Jeffrey Brown ........................................................................................1

General Counsel.......................................................................................................3

U.S. Government Accountability Office .................................................................2
